U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 28, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Tarahrick Terry v. United States of America,
S.Ct. No. 20-5904

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September
28, 2020, and placed on the docket on October 5, 2020. The government’s response is due on
November 4, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 4, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5904
TERRY, TARAHRICK
USA

ANDREW LEE ADLER
FEDERAL PUBLIC DEFENDER'S OFFICE
ONE EAST BROWARD BLVD.
STE. 1100
FORT LAUDERDALE, FL 33301
ANDREW_ADLER@FD.ORG

